No. _____
IN THE
SUPREME COURT OF THE UNITED STATES
KERRY KOTLER,
Petitioner,
v.
L. JUBERT, DEPUTY SUPERINTENDENT OF SECURITY, W. DANN,
CORRECTION SERGEANT, DARWIN DAILY, CORRECTIONS OFFICER, DAVID
CHARLAND, CORRECTIONS OFFICER,
Respondents.
On Petition for a Writ of Certiorari to
the United States Court of Appeals for the Second Circuit
AFFIDAVIT OF SERVICE

I, Tadhg Dooley, do swear or declare that on this date, August 23, 2021, as
required by Supreme Court Rule 29, I have served the enclosed MOTION FOR
LEAVE TO PROCEED IN FORMA PAUPERIS and PETITION FOR A WRIT OF
CERTIORARI on each party to the above proceeding or that party’s counsel, and on
every other person required to be served, by depositing an envelope containing the
above documents in the United States mail properly addressed to each of them and
with first-class postage prepaid, or by delivery to a third-party commercial carrier for
delivery within 3 calendar days.
The names and addresses of those served are as follows:

Jonathan D. Hitsous, Esq.
Assistant Solicitor General
New York State Office of the Attorney General
The Capitol, Albany, NY 12224
Counsel for Respondents
I declare under penalty of perjury that the foregoing is true and correct.

Executed on August 23, 2021.

/s/ Tadhg Dooley
Tadhg Dooley

2

